           FEDERAL HOUSING FINANCE AGENCY
                           s
             OFFICE OF INSPECTOR GENERAL



                        FHFA’s Oversight of
                 Troubled Federal Home Loan Banks




Evaluation Report: EVL-2012-001             Dated: January 11, 2012
                                       FEDERAL HOUSING FINANCE AGENCY
                                         OFFICE OF INSPECTOR GENERAL

                                                 AT A GLANCE
                                               title
                      FHFA’s Oversight of Troubled Federal Home Loan Banks

Why FHFA-OIG Did This Evaluation                                    What FHFA-OIG Found
The Federal Home Loan Bank System (FHLBank System) is a             FHFA-OIG identified several positive actions FHFA has taken
government-sponsored enterprise (GSE) consisting of 12              regarding its oversight of the troubled FHLBanks, including
Federal Home Loan Banks (FHLBanks) whose primary mission            encouraging fiscally conservative dividend and investment
is to support housing finance. To carry out this mission, the       practices, and closely monitoring them through examinations
FHLBank System’s central Office of Finance issues debt at the       and ongoing communications.
relatively favorable rates available to GSEs. The FHLBanks
                                                                    However, FHFA-OIG also found that FHFA has not established
then use the proceeds of this debt to make secured loans,
                                                                    policies, systems, and documentation standards that could
known as advances, to their member financial institutions.
                                                                    strengthen its oversight. Specifically:
These member financial institutions can then use the advances
to originate mortgages.                                                FHFA has not established a written enforcement policy for
                                                                        troubled FHLBanks. Although FHFA examination guidance
FHLBanks may also invest in mortgage-related securities. Since
                                                                        states that FHFA will take formal enforcement actions for
at least 2008, four FHLBanks have faced significant financial and
                                                                        FHLBanks that have supervisory concerns, officials said that
operational difficulties, primarily due to their investments in
                                                                        the guidance does not constitute a specific Agency policy.
certain high-risk mortgage securities.
                                                                        Instead, FHFA officials have broad discretion in determining
The Federal Housing Finance Agency (FHFA or the Agency)                 the circumstances under which formal actions against
has oversight responsibility for the FHLBanks and recognizes            troubled FHLBanks will be initiated. FHFA-OIG believes
the need to ensure that they do not abuse their GSE status and          that the absence of a consistent and transparent written
engage in imprudent activities. To this end, FHFA examination           FHFA enforcement policy for troubled FHLBanks: (1)
guidance states that the Agency generally will initiate a formal        results in a lack of clarity regarding the circumstances under
enforcement action, such as a cease and desist order, when it           which the Agency will initiate formal actions; (2) has
classifies an FHLBank as having the most significant “supervisory       contributed to instances in which FHFA has not acted
concerns” within the FHLBank System. Nonetheless, with                  proactively to hold troubled FHLBanks and their officers
respect to the four FHLBanks discussed in this report                   sufficiently accountable for failing to correct identified risks
(henceforth referred to “troubled FHLBanks”), all of which              or for engaging in questionable risk-taking; and (3) impedes
were classified as having supervisory concerns, formal                  outside reviews of its oversight activities.
enforcement actions were not taken on two of them.
                                                                       FHFA does not have an automated management information
FHFA’s Office of Inspector General (FHFA-OIG) initiated this            system that provides ready access to current information
evaluation to assess the Agency’s oversight of troubled FHLBanks.       about the deficiencies identified in its examinations and the
                                                                        status of efforts to address them. Instead, FHFA uses
What FHFA-OIG Recommends                                                manual reporting processes that limit the Agency
FHFA-OIG recommends that FHFA: (1) develop and                          management’s capacity to identify trends in examination
implement a written enforcement policy for troubled                     findings and the progress made by particular FHLBanks in
FHLBanks that ensures they correct significant deficiencies             correcting identified deficiencies.
within specified periods and establishes consequences for not          FHFA does not consistently document substantive
doing so; (2) develop and implement an automated                        interactions with FHLBanks, including instances in which it
management reporting system for FHLBank examination                     has suggested that an FHLBank remove senior officers. The
findings; and (3) consistently document key interactions with           absence of a record is inconsistent with Agency policy and
FHLBanks. FHFA agreed with these recommendations.                       impedes oversight.

Evaluation Report: EVL-2012-001                                                                     Dated: January 11, 2012
TABLE OF CONTENTS
TABLE OF CONTENTS ..................................................................................................................................... 3

ABBREVIATIONS .............................................................................................................................................. 4

PREFACE ............................................................................................................................................................ 5

BACKGROUND .................................................................................................................................................. 9

    Overview of FHFA and the FHLBank System ..........................................................................................................9
      FHFA ...................................................................................................................................................................9
      The FHLBank System ..........................................................................................................................................9

    Troubled FHLBanks Face Substantial Financial and Operational Challenges .....................................................13
       Recent Losses and Their Cause ..........................................................................................................................13
       Other Notable Risks ...........................................................................................................................................15
       FHFA Supervisory Classifications Signify the Challenges Facing the Four FHLBanks ...................................18

    Troubled FHLBanks Potentially Have Greater Incentives to Engage in Higher Risk Business Strategies ............19

    FHFA Has Taken Some Steps to Monitor and Control the Troubled FHLBanks ...................................................19
    FHFA Does Not Regard Its Examination Guidance to Be a Policy Requiring the Initiation of Formal
    Enforcement Actions for Troubled FHLBanks ........................................................................................................20
    FHFA Views Its Discretion-Based Oversight Strategy as Generally Successful, but the Troubled FHLBanks
    Continue to Face Considerable Challenges and Risks ...........................................................................................23

FINDINGS .......................................................................................................................................................... 24
    1. FHFA Has Not Established a Clear, Consistent, and Transparent Written Enforcement Policy for Troubled
    FHLBanks ...............................................................................................................................................................24
    2. FHFA Has Not Established an Automated Management Information Reporting System to Track FHLBank
    Examination Findings .............................................................................................................................................27

    3. FHFA Does Not Consistently Document Key Actions with Respect to Its Oversight of Troubled FHLBanks ...28

CONCLUSIONS ................................................................................................................................................ 30

RECOMMENDATIONS .................................................................................................................................... 31

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................................................. 32

Appendix A: FHFA’S Comments ...................................................................................................................... 34

Appendix B: FHFA-OIG’S Response to FHFA’S Comments ........................................................................... 37

ADDITIONAL INFORMATION AND COPIES .............................................................................................. 40


             Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                                                      3
ABBREVIATIONS
Fannie Mae......................................................................... Federal National Mortgage Association
FHFA ........................................................................................... Federal Housing Finance Agency
FHFB...............................................................................................Federal Housing Finance Board
FHFA-OIG ...................................... Federal Housing Finance Agency Office of Inspector General
FHLBanks ...............................................................................................Federal Home Loan Banks
Freddie Mac .................................................................. Federal Home Loan Mortgage Corporation
GSE ............................................................................................ Government-Sponsored Enterprise
HERA.......................................................................Housing and Economic Recovery Act of 2008
MBS ..................................................................................................... Mortgage-Backed Securities
MRA ...................................................................................................... Matter Requiring Attention
OFHEO ................................................................. Office of Federal Housing Enterprise Oversight
OMB .......................................................................................... Office of Management and Budget




          Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                                 4
                                     Federal Housing Finance Agency

                                         Office of Inspector General

                                                 Washington, DC




                                               PREFACE
FHFA-OIG was established by the Housing and Economic Recovery Act of 2008 (HERA),1
which amended the Inspector General Act of 1978.2 FHFA-OIG is authorized to conduct audits,
investigations, and other activities of the programs and operations of FHFA; to recommend
policies that promote economy and efficiency in the administration of such programs and
operations; and to prevent and detect fraud and abuse in them. This evaluation is intended to
assess FHFA’s oversight of four troubled FHLBanks that have experienced significant losses and
financial difficulties during at least the 2009 through 2010 examination cycles. FHFA has
reported these 4 FHLBanks as having the most significant “supervisory concerns” among the 12
FHLBanks.3

The FHLBank System is a housing GSE that consists of 12 regionally-based FHLBanks.4 The
FHLBanks are chartered by the federal government, but owned in a cooperative structure by
their respective member financial institutions. Member financial institutions, such as banks and
thrifts, invest capital in their FHLBanks, and they may earn dividends on their investments.
They also elect their respective FHLBanks’ boards of directors which, in turn, appoint the
FHLBanks’ senior officers and managers.

1
    Public Law No. 110-289.
2
  Public Law No. 95-452.
2
3 Public Law No. 95-452.
  FHFA uses an internal system to classify the financial and operational soundness of the FHLBanks. Agency staff
3
  FHFA uses an internal system to classify the financial and operational soundness of the FHLBanks. Agency staff
said the internal system represents confidential supervisory information. In contrast, terminology used in this report
(such as “supervisory concern”) is consistent with the language that FHFA uses to describe the condition of
FHLBanks in its publicly-disseminated annual reports to Congress. However, FHFA-OIG, not FHFA, developed
the term “troubled FHLBanks” to describe FHLBanks classified as having supervisory concerns.
4
 Like the FHLBanks, the Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan
Mortgage Corporation (Freddie Mac) are housing GSEs. Unlike Fannie Mae and Freddie Mac, however, FHLBanks
do not issue publicly traded stock (rather their stock is issued exclusively to member financial institutions).
Moreover, the FHLBanks carry out their housing mission by making collateralized loans, whereas Fannie Mae and
Freddie Mac carry out their missions by purchasing and securitizing mortgages, and by guaranteeing mortgage-
backed securities (MBS).


          Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                          5
The FHLBank System’s primary mission is to support housing finance. To carry out its mission,
the FHLBank System issues debt in the capital markets generally at relatively favorable rates due
to its GSE status. The proceeds of the debt are used by the FHLBanks to make secured
“advances” (i.e., loans) to member financial institutions to foster housing finance.5
Traditionally, member institutions have secured advances by pledging single-family mortgages
or investment-grade securities as collateral to their FHLBank.

FHLBanks may also have investment portfolios that contain mortgage assets, such as MBS. The
four troubled FHLBanks are located in Boston, Chicago, Pittsburgh, and Seattle, and have
experienced significant financial and operational deterioration primarily due to their investments
in private-label MBS secured by non-traditional mortgages.

The troubled FHLBanks may have financial incentives to abuse their GSE status in ways that
could increase their long-term risks. For instance, they conceivably can rely indefinitely on debt
issued at favorable interest rates to finance their activities because of the implicit federal
guarantee of the FHLBank System’s debt.6 Consequently, these FHLBanks could engage in
higher-risk financial transactions to restore their profitability, but that could result in greater
financial deterioration over time.7

As the FHLBank System’s safety and soundness regulator, FHFA has a critical responsibility to
monitor closely the troubled FHLBanks’ financial activities, including the risks they take, and to
help restore their financial and operational soundness. Without vigorous FHFA oversight, the
potential exists that the troubled FHLBanks will engage in risky financial strategies that could
further endanger their financial safety and soundness and the capacity to serve their housing
missions.

5
  Although the federal government does not explicitly guarantee the FHLBank System’s debt obligations, creditors
and other financial market participants have traditionally assumed that there is an “implied” federal guarantee. That
is, creditors and other market participants have assumed that the federal government would provide financial
assistance to the FHLBank System in an emergency and repay its debt obligations in full. Thus, creditors have
traditionally loaned money to the FHLBank System on more favorable terms than to for-profit corporations without
implicit guarantees, which are viewed as presenting a higher risk of defaulting on their debt. See generally
Government Accountability Office, Fannie Mae and Freddie Mac: Analysis of Options for Revising the Enterprises’
Long-Term Structures, GAO-09-782 (Sept. 10, 2009) (discussing the implicit guarantee in the context of other
housing GSEs: Fannie Mae and Freddie Mac) available at www.gao.gov/new.items/d09782.pdf; and Federal
Reserve Bank of Atlanta, The Federal Home Loan Bank System: The “Other” Housing GSE, M.J. Flannery and
W.S. Frame, Economic Review, Federal Reserve Bank of Atlanta, Third Quarter 2006 available at
www.frbatlanta.org/filelegacydocs/erq306_frame.pdf.
6
 In contrast, for-profit corporations with similar financial and operational challenges might face significantly higher
debt costs or be shut out of debt and capital markets altogether.
7
  As discussed in this evaluation report, the evidence suggests that certain troubled FHLBanks engaged in
investment strategies that ultimately resulted in further financial and operational deterioration and losses.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                           6
To that end, FHFA conducts annual examinations of each FHLBank and has the authority to take
a formal enforcement action, such as a cease and desist order, against an FHLBank in order to
remedy any safety and soundness concerns. In each of the examination reports it issues for the
FHLBanks, FHFA guidance states that, in the case of a bank that is classified as having
supervisory concerns, “The general policy is that a formal enforcement action will be taken to
address identified deficiencies or weaknesses.”8

But FHFA formal enforcement actions are outstanding against only two of the four troubled
FHLBanks. FHFA initiated a formal action against the Seattle FHLBank in 2010, but it has not
done so with respect to the Boston and Pittsburgh FHLBanks. FHFA’s predecessor agency, the
Federal Housing Finance Board (FHFB), initiated a formal enforcement action against the
Chicago FHLBank in 2007 and it remains in effect.

FHFA-OIG initiated this evaluation to assess FHFA’s oversight of the troubled FHLBanks
during the 2008 through 2010 examination cycles. In so doing, FHFA-OIG identified several
positive actions that the Agency has taken. These include: encouraging the troubled FHLBanks
to restrict dividend payments to their members in order to rebuild their capital levels;
communicating closely with the FHLBanks; and monitoring their finances and operations
through annual examinations and ongoing discussions. However, FHFA-OIG also found that
FHFA lacks policies, systems, and documentation standards that could strengthen its oversight.
Specifically:

            FHFA has not established a written enforcement policy for troubled FHLBanks.
             Although FHFA examination guidance states that FHFA will take formal
             enforcement actions against FHLBanks that have supervisory concerns, officials said
             that the guidance does not constitute a specific Agency policy. Instead, FHFA
             officials exercise considerable discretion in determining the circumstances under
             which formal actions against troubled FHLBanks will be initiated. FHFA-OIG
             believes that FHFA’s lack of a consistent and transparent written enforcement policy:

             o results in lack of clarity regarding the circumstances under which the Agency will
               initiate formal enforcement actions;

             o has contributed to instances in which FHFA has not held troubled FHLBanks and
               their officers sufficiently accountable for failing to correct identified deficiencies



8
 Similar language is included in FHFA’s examination guidance for the FHLBanks. The language of the policy has
been revised in this evaluation report to avoid the disclosure of confidential FHFA supervisory classifications for the
FHLBanks.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                           7
               or for engaging in questionable risk-taking that potentially further jeopardized
               their financial and operational conditions; and

           o impedes outside reviews of the Agency’s troubled FHLBank oversight activities.

          FHFA does not have an automated management information system that
           provides the Agency’s managers with ready access to current information
           regarding the status of examination findings. Instead, FHFA uses manual
           reporting processes that comparatively limit its ability to monitor and assess the
           extent to which individual FHLBanks are correcting identified deficiencies.

          FHFA does not consistently document all key interactions with FHLBanks. For
           example, although the boards of directors at certain troubled FHLBanks appear to
           have removed senior officers based on FHFA’s assessments of their performance, the
           Agency does not document such interactions with them. The lack of a documentary
           record impedes efforts to review FHFA’s oversight of FHLBanks.

FHFA-OIG believes that the recommendations in this report will result in more economical,
effective, and efficient operations. FHFA-OIG appreciates the assistance of all those who
contributed to the preparation of this report.

The FHFA-OIG evaluation team for this report included David Frost, Investigative Counsel;
Stephen P. Learned, Investigative Counsel; Bruce McWilliams, Investigative Evaluator; and
Wesley M. Phillips, Senior Policy Adviser. This evaluation report has been distributed to
Congress, the Office of Management and Budget, and others and will be posted on FHFA-OIG’s
website, www.fhfaoig.gov.




George Grob
Deputy Inspector General for Evaluations




       Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                    8
BACKGROUND
Overview of FHFA and the FHLBank System

          FHFA

HERA established FHFA as the federal safety and soundness and mission regulator for the
housing GSEs. Since September 2008, FHFA has also acted as the conservator for Fannie Mae
and Freddie Mac. Prior to HERA’s enactment, the FHFB was the safety and soundness and
mission regulator for the FHLBank System and the Office of Federal Housing Enterprise
Oversight (OFHEO) was the safety and soundness regulator for Fannie Mae and Freddie Mac.9
FHFA carries out its GSE oversight and conservatorship responsibilities by conducting
continuous supervision and targeted examinations and by issuing supervisory or enforcement
orders.

          The FHLBank System

                   a. Mission

The FHLBank System was created to reinvigorate a housing market devastated by the Great
Depression of the 1930s. Specifically, the FHLBank System is intended to facilitate
homeownership by increasing liquidity in the housing market.10 Signing into law in 1932 the
Federal Home Loan Bank Act,11 which established the FHLBank System, President Hoover
stated:

          the purpose of the system is both to meet the present emergency and to build up
          homeownership on more favorable terms than exist today. The immediate credit
          situation has … restricted the activities of … institutions making loans for home
          purposes, in such fashion that they are not only unable to extend credit for the




9
  The Department of Housing and Urban Development was Fannie Mae’s and Freddie Mac’s housing mission
regulator.
10
   In addition to promoting liquidity in the mortgage markets, federal law and regulations require the FHLBanks to
promote affordable housing and economic and community development initiatives. For example, under the
Affordable Housing Program, each FHLBank is required to contribute 10% of its previous year’s earnings to fund
affordable housing. See FHLBanks: Affordable Housing Program, available at
www.fhlbanks.com/programs_affordhousing.htm.
11
     Public Law No. 72-304.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         9
          acquirement of new homes, but in thousands of instances they have been unable to renew
          existing mortgages with resultant foreclosures and great hardships.12

To fulfill its mission, the FHLBank System issues debt on a combined basis through its Office of
Finance. Due to its GSE status, the FHLBank System is able to issue debt at rates slightly higher
than comparable U.S. Treasury Department debt but lower than private financial institutions.13

                   b. Assets

The individual FHLBanks use the proceeds from the FHLBank System’s debt to make cash
advances to members (the members pledge assets in return for the advances, as discussed below).
The advances generate interest income for the FHLBanks and provide the members with the
opportunity to issue additional mortgages and make other loans. Advances represented 54% of
the FHLBank System’s $878 billion in total assets at the end of 2010. The FHLBanks’
investments, such as MBS, represented another 36% of total assets. FHLBanks make
investments to generate interest income and to enhance liquidity. Additionally, some FHLBanks
hold whole mortgages on their books, and such mortgages represent the FHLBank System’s third
largest asset class.14 Finally, the FHLBanks hold cash and miscellaneous assets on their books.
Figure 1 depicts the FHLBank System’s asset holdings at the end of 2010.




12
     Herbert Hoover, Statement About Signing the Federal Home Loan Bank Act, July 22, 1932.
13
   The FHLBanks are jointly and severally liable for the FHLBank System’s consolidated debt obligations. Thus, if
an FHLBank encounters financial deterioration or fails, the other FHLBanks are responsible for satisfying its
financial obligations and ensuring that the FHLBank System as a whole continues to honor its debt obligations.
14
  Some FHLBanks purchase whole mortgages directly from their members and hold such mortgages on their
balance sheets. The FHLBanks generate interest income on these holdings.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                        10
Figure 1: FHLBank System Assets, Year-end 201015

                               3%
                       7%


               36%                            54%                                        In Billions
                                                                     Advances                 $479
                                                                     Investments                 314
                                                                     Mortgage Loans               61
                                                                     Cash & Other Assets          24
                                                                     Total Assets             $878




           Advances         Investments       Mortgage Loans        Cash & Other Assets


                   c. The FHLBanks

The 12 FHLBanks are located in designated geographic regions (see Figure 2). Within these
regions, financial institutions – such as commercial banks, thrifts, credit unions, and insurance
companies – may elect to become members of the local FHLBank. Large financial services
institutions with separately chartered subsidiaries may belong to more than one FHLBank. For
example, Bank of America had memberships in 7 of the 12 FHLBank regions at the end of 2010.




15
     Source: FHFA (percentages have been rounded).


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                       11
Figure 2: FHLBank System Regions16




Each of the 12 FHLBanks operates as a cooperative. That is, each FHLBank is owned by its
member financial institutions, which elect the members of the board of directors. The board, in
turn, appoints senior officers and managers to carry out FHLBank policy and run the FHLBank
on a day-to-day basis. Although the 12 FHLBanks may coordinate their activities on selected
issues, the FHLBank System itself does not have a unified management structure. There is no
overall board of directors or other authority governing the FHLBank System as a whole.

FHFA regulations require member institutions to invest capital in their local FHLBank. These
capital requirements, along with the requirement that members pledge collateral, such as single-
family mortgages or investment grade securities to secure advances, are designed to protect the
FHLBanks against the risk that members will default on their advances.17




16
     Source: FHLBank of Boston, available at www.fhlbboston.com/aboutus/thebank/08_01_04_fhlb_system.jsp.
17
   Reportedly, no FHLBank ever has suffered a credit loss on an advance. This is due, in part, to the collateral
requirements.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         12
Troubled FHLBanks Face Substantial Financial and Operational Challenges

         Recent Losses and Their Cause

Since 2008, the troubled FHLBanks have experienced
significant financial and operational challenges. Each
of the four FHLBanks made substantial investments in
                                                                             Private-Label MBS
private-label MBS collateralized by non-traditional                          MBS derived from mortgage loan
mortgage assets that were originated during the housing                      pools assembled by entities other
                                                                             than GSEs or federal government
boom years of 2005 through 2007. When the housing                            agencies, such as private-sector
market collapsed, these FHLBanks suffered significant                        financial services companies.
losses on their investments, and their investment                            Unlike Agency MBS issued by the
                                                                             GSEs, private-label MBS does not
portfolios continue to generate losses. Figure 3 shows                       carry an explicit or implicit
that the troubled FHLBanks collectively recognized                           government guarantee.
losses of nearly $2 billion on their investments in
private-label MBS in 2009 and 2010. The FHLBank of
Chicago recognized the largest amount of such losses –
$600 million – followed by Boston, Seattle, and
Pittsburgh.18




18
   In addition to MBS losses, one of FHFA’s larger concerns for the Chicago FHLBank has been managing the
interest rate risks associated with the large portfolio of whole mortgages that the bank acquired from 1999 through
2007. Interest rate risk is the risk associated with fluctuations in interest rates. Whole mortgages are susceptible to
interest rate risk because they are generally funded with short-term debt and pay a higher fixed rate of interest over
an extended period, such as 15 or 30 years. But if short-term interest rates rise and exceed the fixed rate of interest
paid by whole mortgages, then a financial institution that holds whole mortgages as investments may face significant
financial challenges, which could lead to its eventual insolvency.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                          13
Figure 3: Troubled FHLBanks’ Losses on Private-Label MBS Investments, 2009 and 2010
          (Dollars in Millions)19

                    FHLBank                      2009             2010            Total
            Boston                                  $444              $85            $529
            Pittsburgh                               229              158             387
            Chicago                                  437              163             600
            Seattle                                  311              106             417
            Total                                 $1,421             $512          $1,933


In addition to these reported losses, the troubled FHLBanks may face additional losses associated
with the private-label MBS still in their investment portfolios. Figure 4, below, shows that the
four FHLBanks hold higher levels of securities rated “below investment grade” than the other
eight FHLBanks.20 For example, at the FHLBanks of Pittsburgh and Seattle below investment
grade investments represented more than 4% of total assets, which is more than twice the 1.6%
average for the eight other FHLBanks that are classified as not having supervisory concerns.




19
     Source: FHFA.
20
  Below investment grade securities generally involve substantial risk, are of very poor quality, are at risk of
imminent default, or are in default. See www.bonds.yahoo.com/safety.html.


          Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                          14
Figure 4: Troubled FHLBanks’ Below Investment Grade Investments Relative to Their
          Total Assets, Year-end 201021

         5.0%
                                               4.8%
         4.0%
                                                                                           4.0%
         3.0%

         2.0%            2.4%
                                                                     2.1%
         1.0%

         0.0%
                        Boston              Pittsburgh             Chicago                Seattle

                                           Other 8 FHLBanks average: 1.6%



Senior officials at the troubled FHLBanks told FHFA-OIG that their private-label MBS
investments remain financial and risk management challenges for their institutions. They
explained that their FHLBanks continually monitor such investments and selectively sell MBS
when it makes business sense to do so.

          Other Notable Risks

The troubled FHLBanks confront additional risks; the following risks affect two or more of the
banks:

               Concentration of member advances. The FHLBanks of Pittsburgh and Seattle have
                significant member concentration risk, i.e., a large percentage of advance business is
                confined to ten banks, a relatively small percentage of members (see Figure 5). (The
                FHLBank of Boston’s low concentration of risk is the result of a recent substantial
                decline in advances to one of its largest members.) According to FHFA, these
                advance concentrations are a cause of concern because: (1) the withdrawal of one or
                more large members from a particular FHLBank could significantly reduce its net
                interest income; and (2) the failure of one or more such institutions could cause large


21
     Source: FHFA. The San Francisco FHLBank had the highest percentage at 5.4%.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         15
             losses to an FHLBank if its advances made to the failing institutions were not
             adequately collateralized or the collateral had declined substantially in value.

Figure 5: Troubled FHLBanks’ Advances to Its Top Ten Members as Percentage of Their
          Total Advances, Year-end 201022

      80%
      70%
                                               72%
      60%                                                                                       66%
                                                                        60%
      50%
      40%              44%
      30%
      20%
      10%
       0%
                    Boston:                Pittsburgh:               Chicago:                Seattle:
                  Ranked 12th              Ranked 2nd               Ranked 7th              Ranked 4th

            Limited FHLBank advance demand. FHFA and FHLBank officials told FHFA-
             OIG that some of the troubled FHLBanks are located in regions where the demand for
             advances (and, hence, for the FHLBanks’ primary service/source of revenue) is
             limited.23 The reasons for this limited demand include fewer eligible member
             financial institutions in the regions; relatively small member institutions (smaller
             financial institutions generate less demand for advances); and the overall state of the
             economy in the regions. For example, officials from the FHLBank of Pittsburgh said
             that the FHLBank has recruited as members most of the eligible financial institutions
             in its region and now is actively recruiting insurance companies in its region. FHFA
             officials said, however, that the Pittsburgh FHLBank’s region (i.e., Delaware,
             Pennsylvania, and West Virginia) has recently faced more significant economic
             challenges than other sections of the country. As a consequence, advances decreased
             to $30 billion in 2010. In 2006, advances had been $50 billion, and they were $62
             billion in 2008.
22
  Source: FHFA. The FHLBank of San Francisco had the highest percentage of advances to its top ten members at
86% at the end of 2010.
23
   FHFA-OIG recognizes that overall advances within the FHLBank System have declined substantially since 2008.
There are various reasons for the decline, including the wide availability of relatively low cost deposits as funding
sources for banks and thrifts. But certain troubled FHLBanks may face advance demand challenges that are more
structural in nature, such as being located in regions that have relatively limited economic prospects or less diverse
memberships than others.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                          16
                In the Seattle FHLBank region several large members have either failed (e.g.,
                Washington Mutual) or withdrawn their membership in recent years.

               High percentage of investments to total assets. FHLBank investments include
                private-label MBS and MBS issued by Fannie Mae and Freddie Mac. As shown in
                Figure 6, three of the four troubled FHLBanks, (i.e., Seattle, Chicago, and Boston),
                have the highest percentages of assets concentrated in investments within the
                FHLBank System.

Figure 6: Troubled FHLBank Investments as a Percentage of Their Total Assets, 201024

           60%

           50%                                                                                55%
                                                                       50%
           40%                43%
           30%                                   35%

           20%

           10%

               0%
                         Boston:             Pittsburgh:            Chicago:               Seattle:
                        Ranked 3rd           Ranked 7th            Ranked 2nd             Ranked 1st


                In May 2011, FHFA’s Acting Director stated that it “… is not a sustainable operating
                condition for an FHLBank” to have such large investment portfolios25 because over
                the past 20 years investments have posed a greater risk to the FHLBanks than
                advances. In addition, he noted that a large investment portfolio is inconsistent with
                the FHLBanks’ housing finance mission, and that the FHLBanks should meet their
                housing mission primarily by focusing on their advance business.26

               Operational Risk. FHFA examinations have also identified significant risk
                management and operational deficiencies at the troubled FHLBanks. These include,
24
     Source: FHFA.
25
   FHFA Acting Director Edward J. Demarco, The Franchise Value of Federal Home Loan Banks, 2011 Federal
Home Loan Bank Directors Conference, Washington, DC, May 11, 2011, available at www.fhfa.gov/web-
files/21197/FHLB51111Final.pdf.
26
     See footnote 4, above.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                       17
              but are not limited to, poor collateral risk management, deficiencies in information
              technology systems, and weak corporate governance.

          FHFA Supervisory Classifications Signify the Challenges Facing the Four FHLBanks

In its annual reports to Congress, FHFA uses a risk-based ranking system to classify the financial
and operational soundness of the 12 FHLBanks. FHFA classifies:

             FHLBanks with the lowest risk as “satisfactory;”

             FHLBanks with higher risk but confined deficiencies as “limited supervisory
              concern;” and

             FHLBanks with the highest risk and widespread deficiencies as “supervisory
              concern.”

Figure 7 shows that for at least two examination cycles between 2007 and 2010, FHFA (or its
predecessor agency) assigned the four troubled FHLBanks a composite rating of supervisory
concern. According to FHFA, FHLBanks with this rating are those having the most significant
supervisory concerns among the 12 FHLBanks.

Figure 7: Supervisory Classification for the Troubled FHLBanks, 2007 Through 2010
          Annual Examination Cycles27

                                     200728        2008         2009                       2010
       Boston                      Satisfactory Satisfactory Supervisory                Supervisory
                                                             concern                    concern
       Pittsburgh                  Limited      Supervisory Supervisory                 Supervisory
                                   supervisory concern       concern                    concern
                                   concern
       Chicago                     Supervisory Supervisory Supervisory                  Supervisory
                                   concern      concern      concern                    concern
       Seattle                     Satisfactory Limited      Supervisory                Supervisory
                                                supervisory concern                     concern
                                                concern




27
     Source: FHFA.
28
   FHFA’s predecessor agency, FHFB, did not publicly report its FHLBank ratings in 2007. The 2007
classifications are consistent with the classifications FHFA used in its 2008 report to Congress and thereafter.


          Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                          18
Troubled FHLBanks Potentially Have Greater Incentives to Engage in Higher Risk
Business Strategies

Given that the four FHLBanks classified as having supervisory concerns confront significant
financial and operational challenges, they may have greater incentives to address these
challenges by undertaking higher risk activities in an effort to achieve higher returns. Thus,
FHFA needs to monitor closely their activities and control actions that could potentially lead to
greater financial and operational deterioration and cause greater long-term risks.

Indeed, a senior FHFA official advised FHFA-OIG that the weakened condition of some
FHLBanks has led to increased risk-taking. Specifically, some FHLBanks have faced ongoing
challenges in generating sufficient advance demand, and others have been challenged by weak
economic conditions in their regions. They have reacted to this diminished business by investing
heavily in higher-risk private-label MBS collateralized by non-traditional mortgages during the
housing boom of 2005 to 2007. These investments subsequently resulted in significant losses
when the housing market collapsed.

According to FHFA, these MBS investments were highly rated by credit rating agencies during
the housing boom, and, thus, the risks that the FHLBanks were incurring were not fully
appreciated by the FHLBanks or FHFB at the time. FHFA-OIG did not assess FHFB’s oversight
of the FHLBanks’ investment practices during the housing boom and whether it could have taken
additional steps to mitigate the risks associated with private-label MBS. Nonetheless, going
forward, this experience emphasizes the importance of close FHFA oversight of troubled
FHLBanks’ investment practices and other business strategies and their potential for further
losses.29

FHFA Has Taken Some Steps to Monitor and Control the Troubled FHLBanks

FHFA has taken several steps to monitor and control the four FHLBanks, including:

            Ensuring that they restrict the payment of dividends to preserve their retained
             earnings and capital;


29
   Fannie Mae and Freddie Mac also experienced significant losses based on investments during the housing boom.
Both embarked on aggressive strategies from 2004 through 2007 to purchase risky, non-traditional mortgage assets
such as private-label MBS collateralized by subprime and other mortgage assets. The Financial Crisis Inquiry
Commission concluded that, although OFHEO noted an increase in the occurrence of the Enterprises’ purchases of
risky mortgage assets during that period, it did nothing to stop it. See Financial Crisis Inquiry Commission, The
Financial Crisis Inquiry Report, January 2011, available at www.gpoaccess.gov/fcic/fcic.pdf. When the housing
market collapsed, the Enterprises suffered billions of dollars in losses on these investments, and FHFA placed them
into conservatorships.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                        19
            Encouraging boards of directors to place limits on investment activities;

            Monitoring through annual examinations and regular communications; and

            Discussing with board members and managers the possibility of merging with
             healthier FHLBanks.

FHFA Does Not Regard Its Examination Guidance to Be a Policy Requiring the
Initiation of Formal Enforcement Actions for Troubled FHLBanks

As discussed previously, FHFA’s examination guidance states that the Agency generally will
take formal enforcement actions when FHLBanks are classified as having supervisory concerns.
However, the Agency has informed FHFA-OIG that the examination guidance does not
constitute FHFA policy or require a particular course of action. Rather, under its discretion,
FHFA has initiated formal enforcement actions on a case-by-case basis, and it believes it has
acted appropriately.

FHFA-OIG disagrees. It views FHFA’s lack of a consistent and transparent written enforcement
policy as undermining the Agency’s oversight of troubled FHLBanks.

FHFA’s predecessor agency, FHFB, established the examination guidance that remains in effect.
For FHLBanks classified as having supervisory concerns the guidance provides, “The general
policy is that a formal enforcement action will be taken to address identified deficiencies or
weaknesses.” Formal enforcement actions include the termination of personnel (also known as
“removal and prohibition” actions), the issuance of cease and desist orders, and the imposition of
civil monetary penalties. FHFA may also enter into a Consent Order with an FHLBank under
which the FHLBank must take specified corrective actions. For example, a Consent Order may
require an FHLBank to submit and implement a plan to manage risks associated with its
investment portfolio within a specified period.

As shown in Figure 8, despite the examination guidance, FHFA or its predecessor has initiated
formal enforcement proceedings against only two of the four troubled FHLBanks: Seattle and
Chicago. In 2010, FHFA issued a Consent Order against the Seattle FHLBank. The Chicago
FHLBank is subject to a Consent Order initiated by FHFB in 2007.30


30
   FHFA-OIG found evidence that in some cases FHFA has taken action, albeit action short of formal enforcement
proceedings as provided in its supervisory guidance. In particular, FHFA has expressed a lack of confidence in
certain senior bank officers that led the boards of directors of the troubled FHLBanks to remove senior officers
deemed to be responsible for their institutions’ financial and operational deterioration. However, these actions were
not conducted in accordance with 12 U.S.C. § 4636a, and, thus, it would be incorrect to characterize them as
enforcement actions under the Federal Housing Enterprise Financial Safety and Soundness Act of 1992, as amended.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         20
Figure 8: Troubled FHLBank Formal Enforcement Actions, Regulator, and Action Date31

        FHLBank                  Formal Action              Regulator              Date of Action
Boston                          None                     FHFA                     N/A
Pittsburgh                      None                     FHFA                     N/A
Chicago                         Consent Order            FHFB                     October 2007
Seattle                         Consent Order            FHFA                     October 2010

FHFA officials explained their rationale for the differing treatment of the four troubled
FHLBanks. But FHFA-OIG has concerns about the lack of a consistent and transparent written
enforcement policy. The following summarizes several of FHFA’s rationales and FHFA-OIG’s
analysis of them:

             The examination guidance does not constitute specific FHFA policy. FHFA
              officials explained that FHFB developed the guidance, and FHFA interprets it as non-
              binding internal guidance, defining for examiners the significance of classifying an
              FHLBank as having supervisory concerns. The guidance is intended to create a
              presumption that financial and operational deficiencies are so serious that a formal
              action would typically follow from the classification, but such action is not
              necessarily mandated.

              FHFA-OIG believes the guidance’s plain language is important and establishes
              expectations about Agency actions. If FHFA does not stand behind the language in
              its own examination guidance then clarification or amendment is necessary. Further,
              FHFA sends mixed messages to its examiners and the FHLBanks through its
              seemingly inconsistent interpretation and application of the guidance, particularly
              since the language is repeated in completed examination reports. In its current form,
              the guidance has limited to no practical value for examiners in determining whether
              to classify an FHLBank as having supervisory concerns.

             There were significant differences between the FHLBank of Seattle (which is
              subject to an enforcement proceeding) and the Boston and Pittsburgh
              FHLBanks (which are not).32 FHFA believes that differences among FHLBanks

Additionally, although the Boston and Pittsburgh FHLBank boards of directors agreed to adopt resolutions calling
for improvements in their finances and operations, such board resolutions are not legally binding like enforcement
actions.
31
     Source: FHFA.
32
  FHFB entered into a Consent Order with the Chicago FHLBank in 2007. The circumstances that surround
FHFB’s actions were outside of the scope of the evaluation.


          Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         21
             may warrant establishing formal enforcement actions against some FHLBanks that
             are classified as supervisory concerns and not others. For example, many of the
             Seattle FHLBank’s members had outstanding requests to “redeem” their capital
             investments in the institution; that was not the case in Boston and Pittsburgh.33
             According to FHFA, it was able to mandate that the Seattle Bank not redeem its
             members’ redemption requests through the Consent Order.34 Further, the Boston and
             Pittsburgh Banks had new management teams in place that appeared committed to
             developing and implementing reforms necessary to mitigate identified risks. Thus,
             FHFA officials believe that formal enforcement action was appropriate for the Seattle
             FHLBank but not for the Boston and Pittsburgh FHLBanks.

             FHFA-OIG observes that FHFA has not established written criteria defining the
             exceptions to its guidance generally to initiate formal enforcement actions when
             FHLBanks are classified as supervisory concerns.35 Nor did FHFA provide
             documentation for such exceptions. Without such written criteria and documentation:
             (1) FHFA officials appear to wield broad discretion in deciding whether to initiate
             formal enforcement actions; and (2) FHFA-OIG and other outside parties are not well
             positioned to assess the Agency’s oversight activities.

             FHFA-OIG also observes that a plain reading of FHFA’s reports to Congress and
             internal documentation make it very difficult to distinguish any material differences
             surrounding the financial and operational conditions of the troubled FHLBanks. Each
             is classified similarly as a supervisory concern and faces profound challenges. Given
             the condition of FHLBanks classified as supervisory concerns, a consistent and
             transparent enforcement policy would be the best means to oversee their activities,
             monitor risk-taking, help restore their conditions, and assist public understanding.




33
   FHLBank members have the authority to request redemptions of stock in their FHLBank under specified
circumstances.
34
   FHFA stated that, in ordinary circumstances, an FHLBank must, at a member’s request, redeem that member’s
stock at par value. An FHLBank can cease redemptions upon a determination that any redemption would lead to
inadequate capital or unsafe and unsound conditions. FHFA states that its enforcement action prevented the Seattle
FHLBank from redeeming its members’ stock as they had requested. FHFA-OIG did not evaluate FHFA’s
argument, but notes that the Agency’s assertions suggest that its decision to initiate the enforcement action appears
to have been based on a narrow stock redemption issue rather than the Seattle FHLBank’s overall financial and
operational condition.
35
  According to Office of Management and Budget (OMB) standards, establishing and documenting management
procedures is a key means to ensure that responsibilities are carried out and objectives attained.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         22
FHFA Views Its Discretion-Based Oversight Strategy as Generally Successful, but
the Troubled FHLBanks Continue to Face Considerable Challenges and Risks

In commenting on a draft of this report, an FHFA official emphasized the value of the Agency’s
discretion-based enforcement strategy for the troubled FHLBanks. Further, FHFA provided
financial tables that tend to suggest that the FHLBanks’ financial conditions have improved
under the Agency’s oversight approach over the past several years (see Appendix A).
Specifically, FHFA stated that the FHLBanks have improved in terms of their capital ratios,
retained earnings, market value, and earnings.

FHFA-OIG agrees that these measures indicate improvement and that it is likely that the
Agency’s supervisory actions contributed to those improvements. However, FHFA classified
each of the four FHLBanks as having “supervisory concerns” through the 2010 examination
cycle; this classification means that the banks represent the most significant supervisory concerns
among the 12 FHLBanks. Further, the classification signifies that these four FHLBanks faced
significant financial challenges throughout the relevant period (see Appendix B for additional
discussion by FHFA-OIG).

Further, the improved financial position of the FHLBank of Chicago has largely occurred on the
basis of its sizeable investment portfolio rather that its core advance business.36 FHFA’s Acting
Director has stated that such large investment portfolios are neither “sustainable” nor consistent
with the FHLBanks’ housing missions. FHFA-OIG notes also that such portfolios represent
considerable risks, such as the risk of loss associated with fluctuating interest rates.

As discussed below, FHFA-OIG does not believe that FHFA took sufficient steps to ensure that
the FHLBank of Chicago mitigated these risks in a timely way as required by its 2007 Consent
Order. FHFA-OIG also believes that the establishment of a specific enforcement policy that
includes provisions designed to hold FHLBanks and their officers accountable for failing to
comply with Consent Orders and other regulatory requirements would better ensure effective
oversight of troubled FHLBanks.




36
   For example, the FHLBank of Chicago’s securities filing for the third quarter of 2011 indicates that in the first
nine months of 2011 its gross interest income derived from investments was more than four times higher than its
gross interest income derived from advances ($932 million vs. $203 million). See
http://www.sec.gov/Archives/edgar/data/1331451/000133145111000238/a2011093010q.pdf. Additionally, FHFA’s
2010 Annual Report states that the FHLBank of Chicago’s increasing interest income was “… due to lower funding
costs and increased income from the FHLBank’s large investment portfolio.” See
http://www.fhfa.gov/webfiles/21570/FHFA2010RepToCongress61311.pdf.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         23
FINDINGS
FHFA-OIG finds that FHFA has taken several important actions, including restricting dividends
and ongoing monitoring, to oversee the actions of the troubled FHLBanks. But FHFA-OIG also
finds that:

          1. FHFA Has Not Established a Clear, Consistent, and Transparent Written
             Enforcement Policy for Troubled FHLBanks

FHFA lacks a consistent and transparent written enforcement policy for troubled FHLBanks.
Currently there is a conflict between FHFA’s examination guidance for such FHLBanks and its
stated enforcement policies and practices. This lack of clarity undermines FHFA’s oversight of
troubled FHLBanks and impedes oversight of the Agency’s actions. Further, FHFA-OIG
identified examples where FHFA arguably did not take proactive steps to hold troubled
FHLBanks and their officers sufficiently accountable for failing to comply with the terms of a
Consent Order or for engaging in what the Agency viewed as questionable risk-taking. In the
absence of an enforcement policy that establishes consequences for such actions, the risks
associated with FHLBanks may persist or increase over time.37

FHFA’s examination guidance and its oversight policies and practices for troubled FHLBanks
are in conflict. The examination guidance states that the Agency’s policy is generally to initiate
formal enforcement actions when an FHLBank is classified as a supervisory concern. Contrary
to its guidance, however, FHFA officials stated that basing formal enforcement actions strictly
on whether an FHLBank is classified as a supervisory concern would unduly restrict the
Agency’s supervisory discretion. Consistent with this discretion-based approach, FHFA initiated
a formal action against the Seattle FHLBank but not the Boston and Pittsburgh FHLBanks. 38
FHFA-OIG views the conflict between FHFA’s current guidance and its preferred discretion-
based oversight approach as resulting in a lack of clarity for both its examination staff and the
FHLBanks, neither of which have steady benchmarks against which to gauge their actions. From
the perspective of effective management, FHFA has a responsibility to resolve the differences
between its guidance and practices, preferably through the development of a written enforcement
policy.



37
   FHFA-OIG recognizes that to some extent the troubled FHLBanks’ capacity to restore their financial and
operational soundness is dependent upon the performance of the larger economy and the performance of their
investment portfolios, and these factors are outside of FHFA’s control through enforcement and supervisory actions.
38
     The Chicago FHLBank is subject to a Consent Order initiated by FHFB in 2007.


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                        24
FHFA’s lack of a written enforcement policy also undermines the ability of FHFA-OIG and
other outside reviewers to assess the effectiveness of the Agency’s oversight of troubled
FHLBanks. Although discretion plays an important role in the supervisory process, FHFA-OIG
views troubled FHLBanks as special risks given their GSE status, and therefore they merit a
structured and consistent oversight approach. As such, FHFA-OIG views the current
examination guidance calling for the Agency to generally initiate formal enforcement actions in
such cases as a reasonable means to oversee their operations, minimize risk-taking, and help
ensure their return to financial and operational soundness. The examination guidance also
potentially provides a basis to assess FHFA’s rationale for taking or not taking formal actions.
Nonetheless, the establishment of the appropriate enforcement policy is within FHFA’s
discretion, but whatever policy it devises should be consistent and transparent.

FHFA-OIG also identified instances in which it believes FHFA arguably did not act proactively
to address significant risks identified in its oversight of troubled FHLBanks. Specifically:

            FHFA did not enforce a key provision in the FHLBank of Chicago’s Consent Order.
             Among other provisions, the Consent Order required the FHLBank to send revised
             policies and procedures to address its significant market risks to FHFB within 90 days
             of the date of the order (or early 2008). These market risks were primarily associated
             with the FHLBank’s large holdings of whole mortgage loans. Despite the 90-day
             requirement, the FHLBank did not submit market risk policies and procedures that
             FHFA approved until mid-2010, or nearly three years after the Consent Order was
             established.39 FHFA characterized the time it took the FHLBank to submit approved
             policies and procedures as “unacceptable” but did not take further enforcement
             actions based on its non-compliance.40 Although the FHLBank submitted approved
             policies and procedures in 2010, FHFA’s 2010 Annual Report said that it continued
             to face considerable market risks and its management of them was “weak.” Thus, by

39
  The FHLBank’s failure to comply with this provision of the Consent Order is discussed in FHFA’s 2009 and
2010 reports to Congress.
40
   An FHFA official said that, on multiple occasions during the three years, the FHLBank submitted policies and
procedures, but these were rejected by the Agency. The official also said that FHFA had “harsh” criticism for the
FHLBank’s failure to comply with the terms of the Consent Order relating to market risk and that the bank’s
executives were denied incentive compensation as a result. Further, Agency staff maintained an onsite presence at
the FHLBank to ensure that it corrected identified deficiencies. The official believes that FHFA’s oversight is a
regulatory success story because the Agency held the FHLBank to high standards and the bank’s finances and risk
management have improved. FHFA-OIG recognizes the importance of these actions and the improvement in the
FHLBank’s conditions. However, improvement in its condition appears to be also attributable, in part, to income
derived from its large investment portfolio. In addition, although FHFA-OIG credits FHFA for its ongoing
oversight of the troubled FHLBanks, it is not clear that denying incentive compensation to a bank’s executives holds
them sufficiently accountable for failing to comply with a Consent Order. FHFA has more forceful authorities at its
disposal that the Agency did not use to enforce compliance with the Order.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                        25
                not ensuring that the FHLBank complied with the terms of the Consent Order on a
                timely basis, the FHLBank’s market risks were not addressed for the first three years
                of the Consent Order and it remains to be seen how effectively these risks have been
                mitigated.

               FHFA did not take enforcement actions after it determined that the FHLBank of
                Boston had engaged in what the Agency viewed as questionable risk-taking.41 FHFA
                first classified the FHLBank as a supervisory concern in 2009, but did not take a
                formal enforcement action at that point, purportedly because its new management
                team was viewed as receptive to taking necessary corrective actions. However,
                FHFA’s 2010 Report to Congress subsequently described how the FHLBank
                increased its risks in 2010 through a “revenue generating strategy” that was
                “questionable” for a “weak” institution.42 FHFA also stated that the FHLBank had
                engaged in this strategy without fully assessing the risks involved. FHFA officials
                said that the Agency’s strategy was successful because it required the FHLBank to
                stop the investment strategy and it instituted a supervisory Matter Requiring Attention
                (MRA).43 But FHFA-OIG notes that this approach lacks the strength and effect of
                using a formal enforcement action such as a cease and desist order or civil money
                penalty.


41
   FHFA alleged that the FHLBank of Boston was using short-term debt to finance longer-term Enterprise debt in a
revenue-generating strategy. FHFA also alleged that this initiative exposed the FHLBank to potential losses if
interest rates increased substantially. See FHFA, Report to Congress 2010 (June 13, 2011), available at
www.fhfa.gov/webfiles/21570/FHFA-2010RepToCongress61311.pdf.
The FHLBank of Boston officials told FHFA-OIG that the investments were a legitimate strategy to hedge against a
decline in advance interest income and that they fully apprised the Agency of it at the time. FHFA-OIG does not
take a position on this dispute between FHFA and the FHLBank of Boston. Instead, FHFA-OIG assesses FHFA’s
actions based on its view of the risks involved with the FHLBank’s strategy.
42
     Specifically, the report stated that:
           The board and management assumed additional … risk by embarking on a revenue-generating strategy …
           … Management increased the balance sheet by $4.7 billion at the end of the third quarter (of 2010) by
           purchasing agency (Fannie Mae or Freddie Mac) assets and funding them with debt maturing
           approximately one year shorter than these assets.
           In an increasing interest rate environment, this strategy increases the risk of a reduced market value of
           equity at a time when the FHLBank is overly exposed to credit risk. In a weak institution, using an
           increased interest rate risk strategy is questionable, particularly when the use of this strategy has not been
           subject to rigorous risk management.
Id.
43
  An MRA requires FHLBank management to take steps in a timely way to address the identified deficiency.
Though a valuable supervisory tool, MRAs lack the legal effect of formal enforcement actions, such as Consent
Orders.


            Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                             26
FHFA-OIG believes that a written enforcement policy could better ensure FHFA oversight of
troubled FHLBanks. Specifically, the policy could state that there would be specific
enforcement actions, such as civil money penalties, for the failure to comply with Consent Order
provisions. Similarly, the policy could also state that FHLBanks that are classified as
supervisory concerns but are not initially subject to enforcement actions may be if they
subsequently engage in questionable risk taking that FHFA views as material in nature.

FHFA-OIG also believes that a consistent and transparent enforcement policy needs to define
exceptions to its general provisions to ensure FHFA sufficient flexibility in carrying out its
oversight activities while at the same time allowing a basis for outside observers to assess its
general oversight strategy.

FHFA officials agreed that the Agency should establish an enforcement policy. They also
indicated that such a policy will be in effect by June 30, 2012. FHFA-OIG commends FHFA for
its commitment to establish an enforcement policy by a specified date. FHFA-OIG will monitor
FHFA’s development of the policy and will assess the potential effectiveness of the final policy.

         2. FHFA Has Not Established an Automated Management Information
            Reporting System to Track FHLBank Examination Findings

FHFA lacks an automated information system that provides ready access to current information
needed by Agency managers.44 Instead, FHFA uses manual processes. By relying on manual
processes rather than an automated system, FHFA managers are comparatively limited in their
ability to assess the extent to which individual FHLBanks, including those classified as having
supervisory concerns, are correcting identified deficiencies. Further, the lack of such an
automated information system impeded the ability of FHFA-OIG to assess efficiently the
effectiveness of the Agency’s oversight efforts.

FHFA examiners record their findings with respect to FHLBanks through several manual
processes, none of which provides Agency managers or outside reviewers with the ability to
obtain information rapidly or comprehensively compared to an automated system. For example,
FHFA examiners document their findings, such as MRAs, in the examination reports
themselves.45 To determine whether a specific deficiency exists at a particular FHLBank, an
44
   OMB internal control guidance for the federal government states that: “Information should be communicated to
relevant personnel at all levels within an organization. The information should be relevant, reliable, and timely ….”
OMB, Circular A-123 – Management’s Responsibility for Internal Control, December 21, 2004.
45
  FHFA can take a variety of steps based on its examination findings to ensure that the GSEs correct deficiencies
noted by the examiners. Among them is the creation of an MRA. MRAs are used to identify issues of supervisory
concern that warrant special attention by the GSE to ensure that corrective action is appropriately planned and
executed. An MRA will remain open until the Agency determines that the GSE has taken the action necessary to
correct it.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                         27
Agency manager can retrieve and review an examination report. But the examination report pre-
dates action to resolve its findings and, thus, the report will not provide timely information about
the status of efforts to respond to its findings. Because an FHLBank’s examination report is a
point-in-time document, it is not an ideal vehicle to track the status of corrective actions.

FHFA examiners also document their findings through the use of individual computer
spreadsheets. These spreadsheets often facilitate the tracking of efforts to correct identified
deficiencies. But FHFA-OIG found that different examiners use different spreadsheets – and the
spreadsheets are not part of an overall reporting system that is readily accessible to Agency
management. In addition, FHFA-OIG found instances in which information contained in a
spreadsheet was inconsistent with information contained in relevant Agency examinations.

Certain FHLBanks, including Pittsburgh and Boston, have developed and implemented tracking
systems that enable them to address matters brought to their attention by FHFA examiners.46 For
each issue raised by the Agency in an examination report, the FHLBanks’ tracking systems
reflect: the nature of the issue; the deadline for its resolution; the FHLBanks’ progress in
resolving the issue; and any other matters deemed noteworthy.

FHFA executives informed FHFA-OIG that the Agency is considering establishing an automated
information system to better monitor and track FHLBank examination findings, as well as the
particular bank’s progress in resolving identified deficiencies. But FHFA officials said that the
planned system is still in the development and early implementation stage.47 Thus, it is not clear
when FHFA managers will be in a better position to review the effectiveness of the Agency’s
and the FHLBanks’ efforts to restore the FHLBanks’ financial and operational soundness. Nor is
it clear when outside parties will be in a better position to track the effectiveness of FHFA’s
FHLBank oversight.

     3. FHFA Does Not Consistently Document Key Actions with Respect to Its
        Oversight of Troubled FHLBanks

FHFA does not consistently document significant oversight actions, including in some instances
key personnel actions, which occur in the context of its oversight of troubled FHLBanks.
Specifically, FHFA does not document instances in which it has implied that FHLBanks’ boards
of directors should remove certain senior officials who are viewed as being responsible for the
institutions’ financial and operational deterioration. FHFA-OIG is not in a position to assess the

46
   FHFA officials said the FHLBanks did so at the urging of the Agency, which FHFA-OIG believes reinforces this
report’s conclusion that FHFA should develop a similar system.
47
  FHFA-OIG has not audited or evaluated this system to determine whether its design would meet the standards for
management information reporting contained in this report.


        Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                       28
legitimacy of these implied recommendations because FHFA has not adequately documented its
actions or the reasons for them.

FHFA officials said that the Agency has used its influence to cause – at least indirectly – boards
of directors to remove FHLBank senior managers. For example, a senior FHFA official told
FHFA-OIG that the Agency advised a troubled FHLBank board chairman that FHFA did not
have confidence in the ability of a senior executive to carry out the executive’s responsibilities,
and the board reached a severance agreement with the executive that evening.

Officials from several troubled FHLBanks corroborated that FHFA managers have similarly
influenced their boards to remove senior managers as part of overall efforts to restore their
FHLBanks’ financial and operational soundness.

But FHFA-OIG was unable to identify any FHFA record of these personnel actions even though
Agency guidance establishes that such documentation shall be maintained. Specifically FHFA’s
records management policy states that:

          All FHFA employees and contractors are responsible for creating and managing the
          records necessary to document the Agency’s official activities and actions in accordance
          with FHFA’s recordkeeping requirements.48

FHFA officials told FHFA-OIG that they had not considered their interactions with FHLBanks
regarding the removal of senior officials as necessitating documentation. Yet, they recognize
that documentation is an internal control standard. FHFA is in the process of developing a new
examination documentation framework that will be implemented during 2012. As part of the
new framework, FHFA will consider documenting personnel interactions with the FHLBanks
and other aspects of oversight that may not now be consistently documented.




48
     FHFA Records Management Policy, Policy No: 207 V.i. (January 9, 2009).


           Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                       29
CONCLUSIONS
FHFA has taken several important steps to monitor closely and control the four troubled
FHLBanks, which represent the most significant supervisory concerns among the 12 FHLBanks.
These steps include restricting dividend payments, conducting regular examinations, and
maintaining other ongoing regulatory contacts. On the other hand, FHFA lacks a clear,
consistent, and transparent written enforcement policy. This shortcoming to some extent
undermines the Agency’s oversight of the troubled FHLBanks.

Additionally, FHFA’s ability to supervise the FHLBanks, gauge their improvement or
deterioration, and enforce the Agency’s directives is impaired by the lack of an automated
management information system. The lack of such a management reporting system, as well as
FHFA’s practice of not consistently documenting troubled FHLBank interactions (i.e.,
recommending that FHLBank boards of directors remove certain senior officers), also impedes
outside oversight of the Agency.




       Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                   30
RECOMMENDATIONS
FHFA-OIG recommends that FHFA:

      1. Develop and implement a clear, consistent, and transparent written enforcement
         policy that:

                 requires troubled FHLBanks (those classified as having supervisory concerns)
                  to correct identified deficiencies within specified timeframes;

                 establishes consequences for their not doing so; and

                 defines exceptions to the policy.

      2. Develop and implement a reporting system that permits Agency managers and
         outside reviewers to assess readily examination report findings, planned corrective
         actions and timeframes, and their status; and

      3. Document consistently key activities, including recommendations to remove and
         replace senior officers and other personnel actions involving FHLBanks.




      Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                  31
OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this evaluation was to assess FHFA’s oversight of four troubled FHLBanks: the
FHLBanks of Boston, Chicago, Pittsburgh, and Seattle. FHFA has rated each of these
FHLBanks as having “supervisory concerns” during two or more annual examination cycles.

To address its objective, FHFA-OIG interviewed senior FHFA officials who were responsible
for monitoring and examining these FHLBanks. FHFA-OIG also interviewed officials of each of
the four FHLBanks.

FHFA-OIG also reviewed FHFA’s examination guidance “policy” for FHLBanks classified as
having supervisory concerns, the Consent Orders for the Chicago and Seattle FHLBanks,
FHFA’s 2008 through 2010 examinations for each of the FHLBanks, and other supervisory
materials. Further, FHFA-OIG reviewed FHFA financial data on the FHLBanks. FHFA-OIG
appreciates the efforts of FHFA and FHLBank management and staff in providing information
and access to necessary documents to accomplish this evaluation.

FHFA also reviewed OMB Circular A-123 provisions and requirements.

This evaluation was conducted under the authority of the Inspector General Act, and is in
accordance with the Quality Standards for Inspection and Evaluation (January 2011), which was
promulgated by the Council of Inspectors General on Integrity and Efficiency. These standards
require FHFA-OIG to plan and perform an evaluation that obtains evidence sufficient to provide
reasonable bases to support the findings and recommendations made herein. FHFA-OIG trusts
that the findings and recommendations discussed in this report meet these standards.

The performance period for this evaluation was from May 2011 to November 2011.49

FHFA-OIG provided FHFA staff with briefings and presentations concerning the results of its
fieldwork, and provided FHFA an opportunity to respond to a draft report of this evaluation.
FHFA’s Acting Chief Operating Officer provided FHFA’s written comments, which are
reprinted in Appendix A. FHFA agreed to implement the report’s recommendations within
specified timeframes, but FHFA disagreed with certain statements and analysis in the report.

FHFA-OIG commends FHFA for agreeing to implement the report’s recommendations. FHFA-
OIG also made several revisions to the report in response to FHFA’s official comments as well


49
  The scope of this evaluation does not extend to subsequently released FHFA examinations of the troubled
FHLBanks.


        Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                       32
as technical comments that the Agency’s staff provided separately. FHFA-OIG’s responses to
specific points raised in FHFA’s comment letter are included in Appendix B to this report.




       Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                   33
APPENDIX A: FHFA’S COMMENTS




   Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                               34
Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                            35
Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                            36
APPENDIX B: FHFA-OIG’S RESPONSE TO
FHFA’S COMMENTS
FHFA-OIG appreciates FHFA’s agreement with the report’s recommendations and
establishment of timeframes for implementing them. FHFA-OIG notes, however, that FHFA
also disagreed with some aspects of the draft report, such as the condition of the troubled
FHLBanks, the impact of enforcement actions, and the appropriate quantum of decision-maker
discretion.

Signs of Improvement. FHFA disagreed with text in the draft report stating that the troubled
FHLBanks had experienced significant financial deterioration since 2008. FHFA states that each
of the FHLBanks’ financial conditions have improved over the past several years, and provided
statistics supporting its assertion of improvement.

FHFA-OIG revised the draft report to reflect FHFA’s comment that the four FHLBanks’
financial condition has shown signs of improvement since 2008. FHFA-OIG also added text to
the report body to reflect FHFA’s view and noted that the Agency’s oversight efforts likely
contributed to these trends.

However, despite the improvements, FHFA classified these FHLBanks as having the most
significant supervisory concerns among the 12 FHLBanks during the 2009 and 2010 examination
cycles. For example, FHFA’s 2010 Report to Congress describes significant financial and
operational challenges facing these FHLBanks as shown in Figure 9.




       Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                   37
Figure 9: Excerpts from FHFA’s 2010 Report to Congress Regarding the Troubled
FHLBanks50

                     FHLBank / Conditions of Concern                                  Examination Assessment
Boston                                                                          Level of risk: high for credit risk
FHFA found “significant weakness” in the FHLBank’s private-label MBS            Quality of management: weak for
portfolio. It noted that the FHLBank’s financial condition and                  market risk, operational risk, and
performance were both weak; retained earnings “still need to increase;”         corporate governance
and “regulatory compliance is not adequate.”
Chicago                                                                         Level of risk: high for credit risk
FHFA reported that “key factors affecting Chicago’s overall condition           Quality of management: weak for
include continued weakness in corporate governance, market risk, credit         market risk and corporate governance.
risk, operational risk, and financial condition and performance.” It listed a
poor-quality portfolio of private-label MBS, a large proportion of
“nonmission assets,” and declining advance balances as among the factors
influencing Chicago’s financial condition and performance. Operations
and controls are “deficient in key areas.”
Pittsburgh                                                                      Level of risk: high for credit and
FHFA reported that “continued weakness in private-label MBS portfolio           market risk
and related credit risk position.” It criticized retained earnings as           Quality of management: weak for
“inadequate.” As to risk management, the bank’s performance “aligns             operational risk and corporate
more closely with its long-term plan’s pessimistic scenario, which is           governance
characterized by ongoing recessionary trends on a sustained basis….”
Pittsburgh’s “return to a sound condition will take considerable time in the
best of circumstances, and any new issues could be problematic.”
Seattle                                                                         Level of risk: high for credit, market,
FHFA reported that private-label MBS had occasioned “volatile credit            and operational risk
losses.” Other problems included inadequate retained earnings, a level of       Quality of management: weak for
advances that had declined to its lowest point in over a decade, and a steep    credit risk and corporate governance
decline in 2009 and 2010 in the bank’s “mission focus.” FHFA also noted
that credit risk “continues to be a major concern.”


Further, FHFA-OIG believes that the establishment of a written enforcement policy would
strengthen the Agency’s actions by: (1) ensuring clarity as to the circumstances under which it
will initiate formal enforcement actions; (2) ensuring that FHLBanks and their senior officers are
held accountable for violating Consent Order terms or engaging in questionable risk-taking; and
(3) facilitating independent reviews of FHFA’s oversight activities.

Consequences of Current Enforcement Methods. FHFA also disagreed with FHFA-OIG’s
conclusion that the FHLBank of Boston’s 2010 investment strategy illustrated the “potentially
adverse consequences” of the Agency’s approach to the oversight of FHLBanks. On the
contrary, FHFA said that the FHLBank ceased the investment strategy after a meeting with the
Examiner-in-Charge, and therefore, a formal enforcement action was unnecessary, as the desired
supervisory outcome was achieved.

50
   FHFA, Report to Congress 2010 (June 13, 2011), available at
http://www.fhfa.gov/webfiles/21570/FHFA2010RepToCongress61311.pdf.


         Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                           38
FHFA-OIG revised the report draft and added text reflecting FHFA’s view that its oversight
efforts in this case were appropriate and the reasons therefor. However, FHFA-OIG continues to
view the example as illustrating the consequences of FHFA’s not having developed a clear,
consistent, and transparent enforcement policy. FHFA’s apparent suggestion that the FHLBank
cease the investment strategy and its issuance of the corresponding MRA took place after it had
already incurred the risks associated with the strategy. Further, the MRA and the meeting with
the Examiner-in-Charge lack the force of a formal enforcement action.

Flexibility. In developing an enforcement policy, FHFA believes it would not be prudent to
mandate formal action simply because an FHLBank has been classified as having supervisory
concerns. It believes that to do so would take away important discretionary authority granted to
the FHFA Director and other federal financial institution regulators. FHFA also states that there
has been no demonstration of an adverse effect resulting from its exercise of that discretion to
date and that it is not evident that a formal action should be taken if it is likely that the desired
objective can be accomplished more effectively and efficiently without one.

FHFA-OIG recognizes that discretion plays an important part in FHFA’s supervisory and
oversight processes. But FHFA-OIG also believes that the exercise of complete and undefined
discretion with respect to troubled FHLBanks involves considerable risks as well. For example,
as discussed above, FHFA-OIG believes that FHFA’s oversight of the Chicago and Boston
FHLBanks should have been more proactive in addressing the risks incurred.

Although it is within FHFA’s purview to develop a new policy, FHFA-OIG suggests that the
Agency consider its existing examination guidance as a starting point. The guidance states that
FHFA generally will initiate formal actions when FHLBanks are classified as supervisory
concerns. By defining the circumstances under which FHLBanks classified as supervisory
concerns would be subject to enforcement actions through a written policy, FHFA would
strengthen its oversight of such institutions. FHFA-OIG plans to monitor FHFA’s development
of the new enforcement policy and assess the final product’s potential for meeting these
objectives.




        Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                    39
ADDITIONAL INFORMATION AND COPIES


For additional copies of this report:

          Call the Office of Inspector General (OIG) at: 202-408-2544

          Fax your request to: 202-445-2075

          Visit the OIG website at: www.fhfaoig.gov



To report alleged fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

          Call our Hotline at: 1-800-793-7724

          Fax us the complaint directly to: 202-445-2075

          E-mail us at: oighotline@fhfa.gov

          Write to us at: FHFA Office of Inspector General
                           Attn: Office of Investigation – Hotline
                           1625 Eye Street, NW
                           Washington, DC 20006-4001




        Federal Housing Finance Agency Office of Inspector General • EVL-2012-001 • January 11, 2011
                                                    40
